<html>
<title> - STATE DEPARTMENT TRAINING: INVESTING IN THE WORKFORCE TO ADDRESS 21ST CENTURY CHALLENGES</title>
<body><pre>[Senate Hearing 112-73]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-73
 
                       STATE DEPARTMENT TRAINING:
     INVESTING IN THE WORKFORCE TO ADDRESS 21ST CENTURY CHALLENGES

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2011

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
66-678                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4e293e210e2d3b3d3a262b223e602d212360">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  ROB PORTMAN, Ohio
MARK BEGICH, Alaska                  RAND PAUL, Kentucky

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
MARK BEGICH, Alaska                  JOHN ENSIGN, Nevada

                     Lisa M. Powell, Staff Director
             Jessica K. Nagasako, Professional Staff Member
                      Aaron H. Woolf, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
    Senator Coburn...............................................    11

                               WITNESSES
                         Tuesday, March 8, 2011

Hon. Nancy J. Powell, Director General of the Foreign Service and 
  Director of Human Resources, U.S. Department of State..........     3
Ruth A. Whiteside, Director, Foreign Service Institute, U.S. 
  Department of State............................................     4
Jess T. Ford, Director, International Affairs and Trade Team, 
  U.S. Government Accountability Office..........................     6
Hon. Ronald E. Neumann, President, American Academy of Diplomacy.    17
Susan R. Johnson, President, American Foreign Service Association    19

                     Alphabetical List of Witnesses

Ford, Jess T.:
    Testimony....................................................     6
    Prepared statement...........................................    45
Johnson, Susan R.:
    Testimony....................................................    19
    Prepared statement...........................................    63
Neumann, Hon. Ronald E.:
    Testimony....................................................    17
    Prepared statement...........................................    55
Powell, Hon. Nancy J.:
    Testimony....................................................     3
    Prepared statement...........................................    29
Whiteside, Ruth A.:
    Testimony....................................................     4
    Prepared statement...........................................    38

                                APPENDIX

Background.......................................................    69


                       STATE DEPARTMENT TRAINING:
     INVESTING IN THE WORKFORCE TO ADDRESS 21ST CENTURY CHALLENGES

                              ----------                              


                         TUESDAY, MARCH 8, 2011

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Coburn.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order. I want to welcome our 
witnesses. Aloha and thank you for being here today.
    Today's hearing, State Department Training: Investing in 
the Workforce to Address 21st Century Challenges, will examine 
the results of the Government Accountability Office (GAO) 
review on that topic. We will also discuss key recommendations 
from a recent report by the American Academy of Diplomacy (AAD) 
and the Stimson Center on Diplomatic Professional Education and 
Training.
    Advancing America's interest in safeguarding global 
security is becoming ever more complex. According to Defense 
Secretary Gates, a robust civilian capability, coupled with a 
strong defense capability, is essential to preserving U.S. 
national security interests around the world.
    Today, GAO is releasing a report finding that the State 
Department has developed an extensive training program for its 
employees. In recent years, the department has focused on 
increasing staffing levels and investing in training programs. 
State offers a wide variety of education and training 
opportunities, including traditional classroom, as well as 
computer-based training.
    However, GAO identified areas needing improvement. More 
specifically, GAO found that State does not yet comprehensively 
assess its training needs, track training costs and delivery, 
or evaluate training using outcome-based performance measures. 
I urge State to work closely with GAO to implement its 
recommendations. In this tough budget climate, it is more 
important than ever for the department to conduct the planning 
and evaluation necessary to fully support its funding requests 
and target limited resources strategically.
    The House-passed budget would cut 16 percent from State and 
the United States Agency for International Development (USAID). 
I believe this cut is shortsighted and could lead to greater 
long-term costs. The events in the Middle East and North Africa 
over the past few months underscore the need for robust and 
agile State Department capabilities. Iraq and Afghanistan also 
will continue to present complex long-term diplomatic and 
development challenges.
    Around the world, the work of the State Department helps 
build more stable societies, which minimizes the potential for 
conflict, lowering the human and financial costs of military 
engagement. Meeting these critical challenges requires 
investment in the training and professional education needed 
for State Department employees to effectively advance U.S. 
foreign policy interests. It is essential to the department's 
operations and our Nation's security to provide State with the 
resources to properly staff and train its most valuable asset--
its workforce.
    The American Academy of Diplomacy and others have 
recommended that State maintains a 15 percent personnel float 
to allow for training without hindering the department's 
operations. The department has made great strides to try to 
attain the staffing necessary for long-term training, but the 
current funding environment has created a great deal of 
uncertainty.
    Congress must do its job to eliminate the funding 
uncertainty. We cannot expect the Federal agencies to 
efficiently or effectively implement long-term strategies with 
short-term funding extensions.
    I look forward to hearing from our first panel of witnesses 
and welcome them here today: Ambassador Nancy J. Powell, the 
Director General of the Foreign Service and Director of Human 
Resources (HR) at the Department of State; Ruth Whiteside, 
Director of the Foreign Service Institute, also at the 
Department of State; and Jess Ford, the Director of 
International Affairs and Trade at the Government 
Accountability Office. Good to see you back again.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses and I would ask all of you to stand and raise 
your right hand.
    Do you swear that the testimony you are about to give this 
Subcommittee is the truth, the whole truth and nothing but the 
truth, so help you, God?
    Ms. Powell. I do.
    Ms. Whiteside. I do.
    Mr. Ford. I do.
    Senator Akaka. Thank you. Let it be noted in the record 
that the witnesses answered in the affirmative.
    Before we start, I want you to know that your full written 
statements will be part of the record and I would also like to 
remind you to please limit your oral remarks to 5 minutes.
    Ambassador Powell, will you please proceed with your 
statement?

  TESTIMONY OF THE HON. NANCY J. POWELL,\1\ DIRECTOR GENERAL, 
     FOREIGN SERVICE AND DIRECTOR OF HUMAN RESOURCES, U.S. 
                      DEPARTMENT OF STATE

    Ms. Powell. Mr. Chairman, thank you for this opportunity to 
appear before you today to talk about the State Department's 
efforts to ensure that our people are trained effectively to 
address the foreign policy challenges of the 21st Century.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Powell appears in the appendix on 
page 29.
---------------------------------------------------------------------------
    We worked closely with the GAO team on its study of our 
training and we welcome their recommendations. The State 
Department carries out U.S. foreign policy in increasingly 
complex and often perilous environments. The last decade has 
been marked by a growing number of global threats to our 
security, including violent extremism, trafficking in narcotics 
and persons, natural disasters and pandemics. In order to 
manage these threats, we must build productive partnerships 
with other countries to help strengthen their capabilities. We 
recognize that we must continue to reach out to influence 
public opinion and build our diplomatic presence where our 
interests are most at stake.
    In December, the State Department issued the first ever 
Quadrennial Diplomacy and Development Review (QDDR), which 
provides a blueprint for elevating American civilian power to 
better advance our foreign policy interests. The QDDR also 
calls on the department to deploy additional personnel and 
resources to emerging powers and centers of global and regional 
influence, such as Brazil, China, India, Indonesia, Mexico, 
Nigeria, Russia, South Africa and Turkey.
    We must ensure that our employees receive the support and 
training they need to succeed in these posts, as well as when 
they move on to their next assignment or return home. The 
Bureau of Human Resources is responsible for the State 
Department's greatest assets, its personnel. The Civil Service, 
Foreign Service and locally-employed (LE) staff will advance 
the interests of the United States.
    Our mission spans the full course of employee services from 
before employees are hired until after they have retired. We 
work hand in hand with the Foreign Service Institute to ensure 
that employees of our three different workforces are well 
equipped to handle the demands of their jobs.
    In this report, GAO recognized the wide variety of training 
we have designed to provide our people with the knowledge and 
skills to address today's diplomatic challenges. GAO also noted 
some areas where we could improve. I would like to briefly 
discuss what we have done to strengthen our training program. 
My colleague, Foreign Service Institute (FSI) Director Dr. Ruth 
Whiteside, will provide greater detail about FSI's programs.
    Effective training is essential to the success of our 
people in meeting our foreign policy objectives. We agree with 
GAO that training programs, whether they be for our Foreign 
Service employees, Civil Service employees, or locally-employed 
staff, will not succeed unless we first fully assess our 
training needs.
    To better assess our Foreign Service needs, we completed a 
comprehensive job analysis for Foreign Service generalists in 
2007 and one for a specialist in 2009. FSI used the results of 
these analyses to modify its course offerings. We have created 
a career development plan (CDP) for generalists and specialists 
that outlines the knowledge, skills and expertise they will 
need throughout their career.
    The situation with our Civil Service employees is a bit 
different. Entry-level employees have well-defined training 
needs and many enter through highly structured Federal 
internship programs that have their own training requirements. 
We are also developing a formal needs assessment for our Civil 
Service workforce. For our 43,000 locally-employed staff in 270 
different posts around the world, we require flexibility in 
assessing needs and planning in administrative training. We 
have increased training for these staff at our regional 
centers, which allows them to take many of the same 
professional courses given to United States staff. We 
supplement these opportunities with professional conferences 
and other training.
    Another challenge that we face as we bring in large numbers 
of new Foreign Service and Civil Service employees is the 
experience gap with our workforces. Approximately 33 percent of 
Foreign Service employees and 36 percent of Civil Service 
employees currently have less than 5 years of experience with 
the department and 61 percent with less than 10. We are 
continuing our formal and informal mentoring programs to help 
them. This is also an issue that the American Academy of 
Diplomacy addresses and Dr. Whiteside and I work closely with 
them.
    I want to take just a minute to touch on another training 
issue that I know is of interest to you, Senator, strengthening 
our foreign language capabilities, which are central to 
achieving our Nation's foreign policy goals. We will transmit 
to you today the formal copy of our language strategy, which 
has been completed and cleared. But in the meantime, we have 
been working to align our tools in terms of recruitment 
incentives, career requirements and assignments, along with 
that strategy.
    With the news over the past few weeks highlighting how our 
world is changing and increasing the complexity of the State 
Department's mission, it is highly appropriate that we are 
talking about training today. Our people are key to our success 
and we must ensure that they are fully equipped to handle not 
only today's challenges, but are prepared to meet tomorrow's as 
well.
    Mr. Chairman, thank you for the opportunity to speak today 
and I will be happy to take your questions. Thank you.
    Senator Akaka. Thank you very much, Ambassador, for your 
statement. Director Whiteside, please proceed with your 
statement.

 TESTIMONY OF RUTH A. WHITESIDE,\1\ DIRECTOR, FOREIGN SERVICE 
              INSTITUTE, U.S. DEPARTMENT OF STATE

    Ms. Whiteside. Thank you very much, Senator. It is a great 
honor to be here with you today to talk about this important 
subject.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Whiteside appears in the appendix 
on page 38.
---------------------------------------------------------------------------
    The GAO report has given us some very helpful insights into 
ways we can enhance our training programs. We were very pleased 
that the report found that the department was meeting 26 of the 
32 attributes of the strongest Federal training, strategic 
training and development efforts. We welcome the 
recommendations they have made in other areas where we can 
strengthen our actions and in fact, we have already closed out 
one of their recommendations on curriculum design guidance.
    The Foreign Service Institute is the department's principal 
training arm. We provide career-long training programs for all 
the department's employees, Foreign Service, Civil Service, and 
foreign nationals overseas. Our programs include over 600 
classroom courses and over 200 in-house developed distance 
learning courses offered to our worldwide workforce.
    We train everyone in the department from our newest Foreign 
Service and Civil Service employees through our ambassadors as 
they prepare to depart for their assignments overseas. Our 
curriculum covers disciplines as diverse as management, 
consular, public diplomacy, politics and economic reporting, 
negotiations, area studies, among many others.
    In addition to these traditional areas, we are providing 
training and stability operations for those destined for our 
most challenging assignments in Iraq, Afghanistan, Pakistan, 
Sudan and other unstable countries.
    Foreign language instruction, as the director general said, 
is critical to our diplomats' ability to communicate America's 
message overseas and we provide language training in more than 
70 languages. Leadership training is also an important focus 
and we are training everyone from first-time supervisors to 
newly promoted senior Foreign and Civil Service employees and 
we work closely with employees and family members as they 
transition overseas to help them anticipate and cope with 
issues they face, ranging from security and dangerous overseas 
environments to raising resilient Foreign Service children, to 
returning from high-stress assignments and moving back into 
mainstream assignments.
    The FSI curriculum is geared to support the entire embassy 
team and in our training audience we include students from 47 
other Federal Government agencies who work in our embassies and 
many members of the military who also serve in our embassies 
abroad.
    We face many challenges for providing training for today's 
complex foreign affairs environment. The secretary's Diplomacy 
3.0 hiring initiative has increased our training enrollments 
over 50 percent from pre-deployment days. I mentioned our 
stability operations curriculum, a new area that has led us 
into much more training with the military and understanding 
civilian-military relationships overseas.
    And we heeded the call from Congress and the GAO and others 
to strengthen interagency training, and we have created 
programs such as the National Security Executive Leadership 
Seminar for GS-15s and Foreign Service Officer (FSO)-1s from 
all across the government.
    A continuing challenge is the need to train a workforce 
that is deployed worldwide and we are proud to be leaders in 
the area of computer-based distance learning training, which 
makes it possible for our workforce to train over the internet 
24/7 from wherever they are in the world. Today we have more 
than 200 courses ranging from foreign languages to trade craft, 
to supervisory skills, to the basics of reconstruction and 
stabilization, to augment the training that we do in the 
classroom and to allow folks, particularly our local employees 
overseas who would never have the opportunity perhaps for 
training, to access these invaluable resources.
    We work closely with the director general's staff and 
others in the bureau to assure that our training is focused on 
the department's needs and anticipates future requirements. We 
regularly review reports like the GAO reports from other parts 
of the department, inspector general's reports, work of the 
director general's office, like the job analysis she mentioned, 
and external reports, such as the Academy of American Diplomacy 
report we will be talking about later today. We are delighted 
to see Ambassador Neumann here and we work closely with him in 
that important study.
    In conclusion, sir, the men and women of the department, 
Civil Service, the Foreign Service, and our locally-employed 
staff have chosen the path of public service and they are doing 
tough jobs often in very tough locales and at great personal 
risk. They deserve the best preparation we can provide them to 
do their jobs at a very high level and to help them develop 
into future leaders. Especially in an era of tight budgets, as 
you mentioned, training is critical to ensure that our 
employees are performing their work with maximum efficiency and 
effectiveness.
    Mr. Chairman, thank you again for letting us be here and we 
look forward to your questions.
    Senator Akaka. Thank you very much, Director Whiteside, for 
your statement.
    Mr. Ford, will you please proceed with your statement?

 TESTIMONY OF JESS T. FORD,\1\ DIRECTOR, INTERNATIONAL AFFAIRS 
     AND TRADE TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Ford. Thank you, Mr. Chairman. I am pleased to be here 
today to discuss our report which is being released, as you 
mentioned in your opening statement. Because the State 
Department is the lead agency for U.S. foreign policy, its 
personnel requires certain knowledge, skills, and abilities to 
equip them to address the global security threats and 
challenges facing the United States, such as fighting 
terrorism, implementing AIDS, HIV-AIDS and other pandemic 
problems, environmental degradation and a number of other 
foreign policy issues.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ford appears in the appendix on 
page 45.
---------------------------------------------------------------------------
    From Fiscal Year 2006 to 2010, the State Department's 
funding for training has grown 62 percent, up to approximately 
$266 million for this year. It covers training in a number of 
key skill areas that have been mentioned by the other 
witnesses, primarily in the areas of foreign language 
proficiency, area studies, information technology (IT), 
consular duties and other important endeavors that are 
primarily under the aegis of the FSI, the Foreign Service 
Institute.
    Our prior work has identified staffing and foreign language 
shortfalls at the State Department. These challenges are 
directly related to their needs to address shortfalls in the 
mid-level area, in particular, and also in the area of foreign 
language. We discussed these issues with you approximately a 
year ago.
    Today the department is currently involved in a major 
challenge in Iraq where they are trying to take over for the 
military responsibility there, which is one of the greatest 
hardship posts that State Department personnel are going to be 
involved in. The recent departmental initiatives, particularly 
Diplomacy 3.0, a multi-year effort launched in 2009, is meant 
to increase the Foreign Service by 25 percent and the Civil 
Service by 13 percent by 2014.
    Mr. Chairman, our report today discusses a number of issues 
related to the State Department's training. We acknowledge that 
the State Department has taken a number of steps to incorporate 
the elements of an effective training program. For example, the 
State Department has a workforce training plan. FSI has an 
annual schedule of courses for both classroom and distance 
learning for all State employees.
    State also has a range of evaluation mechanisms to assess 
employee satisfaction with training and seeks feedback through 
these annual training surveys. However, State has not 
developed--we believe State can improve in a number of areas, 
which we have covered extensively in our report.
    First, we believe that the State Department needs to 
complete a systematic, comprehensive training needs assessment 
to incorporate all bureaus and overseas posts. Since 2007, the 
State Department has acknowledged that bureaus in particular 
have not formally conducted annual training needs assessments. 
Without such systematic assessments, State cannot be assured 
that its training is connected to all of its true needs and 
priorities.
    State indicated that the Bureau of Human Resources intends 
to form an interagency group to address the comprehensive need 
and we heard earlier this morning that they have started to 
take some analyses which are designed to address our 
recommendation.
    State has developed guidance designed to improve 
information for employees about training opportunities, career 
ladders, and paths, and how training can help employees with 
their career goals. We found some issues regarding the 
usefulness of some of the guides that they have prepared. We 
found that specific training requirements designed by bureaus 
and posts for certain groups of employees are not always 
clearly identified in their training guidance. State has 
acknowledged that they need to address this issue and are going 
to be addressing our recommendations meant to improve the 
guides.
    State has also not developed a data collection and analysis 
plan for evaluating training, which could help ensure that 
appropriate procedures and criteria for evaluating training are 
systematically applied across the board. As a result, it is not 
clear whether and how State systematically makes decisions 
regarding how training programs will be evaluated using 
different methods or tools or how results will be used. Once 
again, we have recommended that the State Department address 
this issue and they have indicated they plan to do so.
    State has not sufficiently demonstrated consistent and 
appropriate support for training, because it does not track 
detailed data and information on training costs and delivery 
that would allow for such analysis and a comparison of 
employees in different skill groups, particularly at the bureau 
and post level.
    For example, State could not provide data on the percentage 
of foreign affairs or political officers that have completed 
required, recommended, or suggested training for their areas of 
work. We believe this type of analysis will help them identify 
the needs and skills that they need in the future and we have 
urged them to include more analysis of this type of training 
endeavor.
    Finally, State has developed certain training-related goals 
and measures, but the measures do not fully address all of the 
goals and are intended to be more output versus outcome 
oriented. As a result, they could not provide clear means of 
determining whether State's training efforts have achieved the 
overall goals that they have set for themselves. Again, we made 
a recommendation in our report for them to address that and 
they indicated they would do so.
    Mr. Chairman, I am going to stop and conclude my statement 
here and I would be happy to address any further questions.
    Senator Akaka. Thank you, Mr. Ford, for your statement.
    Mr. Ford, as you know, the State Department has invested 
more heavily in training in recent years. Its funding for 
training grew as you mentioned, by 62 percent between Fiscal 
Years 2006 and 2010, when State devoted about $255 million to 
employee training. At the same time, the number of Foreign 
Service, Civil Service and locally-employed staff increased by 
about 17 percent.
    Your report highlights the importance of evaluating 
training efforts. With State's current planning and evaluation, 
can we be sure if State has sufficient funding for training and 
if it is achieving the desired results?
    Mr. Ford. Well, let me comment on a couple of things that I 
think are important here. First, the department does have some 
mechanisms to evaluate its training endeavor. I mentioned 
earlier the annual surveys that they conduct for employees 
overseas. They tend to focus on levels of satisfaction with the 
training that had been received and the department collects 
useful information on that.
    I think there are a couple of areas that we think the 
department needs to concentrate a little bit more on and that 
has to do with the results of their programs. They tend to 
focus primarily on employee satisfaction. We would like to see 
more analysis on the actual impact of the training so that if 
they are in a position where they have to make tradeoffs about 
the type of training that is going to be provided because of 
budgetary reasons, they will have a solid basis for determining 
where they need to make that investment.
    So our recommendation in the area of evaluation is designed 
for them to have better information to make better investment 
decisions so that if they have to make adjustments in training 
because of budgetary constraints, they will be in a better 
position to prioritize and spend the money in the areas that 
are most important for their mission.
    Senator Akaka. Thank you. Ambassador Powell, what is the 
current status of implementing the Secretary's Diplomacy 3.0 
initiative to increase Foreign Service employees by 25 percent 
and Civil Service employees by 13 percent by Fiscal Year 2014?
    Ms. Powell. I am very happy to report, Senator, that using 
the funds that were provided in Fiscal Years 2009 and 2010, we 
have been able to increase the size of the Foreign Service by 
16 percent and the Civil Service by 8 percent. These increases 
have provided us with a number of opportunities with some very, 
very highly talented people that we have been able to recruit. 
They are serving around the world at this point. They are in 
training. It has allowed us to increase the number of 
individuals who are in training and still staff our positions 
overseas.
    We have also created 600 new positions that are addressing 
critical needs in the areas that we have talked about earlier 
today, some of the national security, some of the hard 
languages, global climate change, women's rights, food 
security, so a variety of things that were urgent needs and we 
have been able to fill many of the vacancies, particularly at 
the entry- and mid-level that have plagued our service over the 
past few years when hiring was not as robust.
    Senator Akaka. Ambassador Powell, what effect does the 
current budget uncertainty have on State operations and 
training, and does State have contingency plans to meet its 
workforce and training needs in the event of funding 
shortfalls?
    Ms. Powell. Senator, the answer is obviously difficult for 
all of us as we deal with the Fiscal Year 2011 funding. We 
continue to work on the program that we had set up with the 
budget using the continuing resolution. We are working very 
hard in HR to look at various scenarios involving different 
budget scenarios. The fiscal year (FY) 2012 budget has included 
additional positions in the 3.0 effort so that we can continue 
that effort in Fiscal Year 2012.
    Senator Akaka. Mr. Ford, State uses different models of 
training more extensively with different employee groups. For 
example, most FSI classroom training is provided to Foreign 
Service employees, and locally-employed staff overseas receive 
the largest amount of computer-based training.
    Did GAO assess whether the type of training provided to the 
different groups is appropriate?
    Mr. Ford. Our report does not specifically identify the 
appropriateness or the types of training that the department is 
employing. We acknowledge that the distance learning has been 
an expanding area and that the locally-engaged staff at the 
over 200 missions overseas frequently use that as a device to 
increase their skill sets.
    I think the issue that we raise in our report has to do 
with the overall needs of the department and we think they need 
to have a solid foundation of defining what the needs are and 
then the tools that they would use to carry those programs out, 
be that classroom training, distance learning or external 
training, would be part of the plan that they would pull 
together to define which areas require the greatest investment.
    So our view is if they--we want them to do a comprehensive 
assessment to identify what those requirements are and then 
they would look at the tools that they have in place to address 
those. That would include distance learning, classroom training 
or external training.
    Senator Akaka. Mr. Ford, did GAO identify any specific 
additional training that should be required for certain 
personnel?
    Mr. Ford. As part of our report, we met with and discussed 
with a number of bureau officials at the department, functional 
bureaus and geographic bureaus, as well as some State 
Department employees overseas. We contacted 12 posts in the 
course of our work. Our conversations with those individuals 
indicated there are some areas that they believe the department 
needs to focus on in training. A lot of it has to do with 
occupational subject matter training, training in areas such as 
program management, contract management, some of the areas that 
we had in some of our prior work had identified areas where we 
think the department needs to improve in.
    So again, we would like to see the department's assessment 
process clearly identify which of these programmatic 
occupational areas should be greater focused on in the training 
regime, because clearly the people in the field and at the 
bureau level have indicated these are areas that they think 
further training may be required.
    Senator Akaka. Director Whiteside, as you know, three 
regional centers provide some training to State employees, 
particularly locally-employed staff. However, GAO found that 
each center's model for developing and delivering training, as 
well as their coordination with FSI, varies. GAO also found 
that posts in African and Near Eastern Affairs regions 
currently are not formally served by the regional centers.
    Has State considered providing a more centralized and 
strategic process for offering training through the regional 
centers?
    Ms. Whiteside. Thank you very much for the question, sir. I 
think the answer to that is a definite yes. We have been very 
proactive in the last year and increasingly with the regional 
centers in terms of coordinating the training that they have 
done.
    We have recognized that because they are in the region, we 
can leverage their locations. We have been working with them to 
identify what we call adjunct faculty. These are persons who 
serve in the region, often locally-employed staff that can be 
trained to offer training. Then we are able to extend the 
number of FSI courses in the field that do not have to be 
taught by sending an instructor from FSI to the field, but that 
can be taught in the field by someone who has been trained by 
FSI using FSI training materials.
    We have a very active program now with the three, as you 
mentioned, the Western Hemisphere, the European Bureau, and the 
East Asia and Pacific Bureau, and they are in fact now reaching 
out more to Africa and the Middle East through arrangements 
that will reach those Foreign Service National employees (FSNs) 
as well, so regional training and using adjunct faculty to 
expand the reach of training in the most efficient way possible 
is a very high goal of ours.
    Senator Akaka. Well, thank you for those responses. Good 
morning, Senator Coburn.
    Senator Coburn. Good morning.
    Senator Akaka. Good to have you. I would like to ask 
Senator Coburn for his questions.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you. I appreciate the opportunity to 
be here. I have a short statement. How many of you are familiar 
with what the Deficit Commission recommendation was in terms of 
the State Department; anybody familiar with the recommendation?
    The recommendation of the Deficit Commission was to 
essentially reduce State Department personnel by 10 percent 
based on studies that we reviewed. And based on the criticisms 
in the report that was released by the GAO today, every area of 
the Federal Government has some problems, including yours truly 
in the Senate.
    The thing that concerns me is we have Diplomacy 3.0 with 
this goal of ramping up at a time when we're on an absolutely 
unsustainable course in terms of being able to pay the bills. 
It is one thing to ramp up. It is the other thing to ramp up 
without proper training and also the proper controls on the 
training.
    I wanted to come today to thank Senator Akaka for holding 
the hearing, one, but also to put into the record what is not 
going to happen in the future, and it is not going to get 
ramped up, because we do not have the dollars to do it. I also 
want to put into the record a criticism on locality pay.
    Right now the State Department has 25,000 applicants for 
900 positions. You essentially have 27 applicants for every one 
position that is open. The locality pay, which is another 
recommendation, in terms of comparison is something that we are 
not going to be able to afford in the future and it is going to 
go away and people ought to be expecting that.
    Our troops do not get locality pay. Our military officers 
do not get foreign pay. The other thing that the Deficit 
Commission asked to be done is for every consulate to really 
assess whether or not they are absolutely necessary everywhere 
we have a consulate. It is a new day and it is really important 
that our leaders, such as you all, understand that we are going 
to be under very constricted resources for the next 20 years in 
this country and the absolute imperative of having an effective 
diplomacy effort is vital to us. We understand that.
    But every area of our Federal Government is going to be 
required to contribute. It really works out that if we do not 
do that, we will be making these decisions in a very short time 
frame and not making them as effective as if we planned for 
them. I will not go into the reason why that is going to 
happen, but there are not many people that deny that is going 
to happen. We must do it in a thoughtful and in a very prudent 
manner as we go forward.
    I appreciate tremendously the work of the GAO to raise the 
prudent questions that need to be raised for all of us to be 
better in what we do. I recognize Director Powell and Director 
Whiteside having a report that is critical of what we do in 
terms of training. It is not meant to be critical. It is meant 
to make us better and I hope that the report that is put 
forward will reenergize us in terms of comprehensive training 
for the very valuable State Department employees that we have.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Coburn.
    Ambassador Powell and Director Whiteside, in recent years, 
more State Department employees have been serving in dangerous 
locations and carrying out their missions beyond the walls of 
secured embassy compounds. The National Security Presidential 
Directive (NSPD) 12 calls on the Federal Government to prepare 
all at-risk Federal employees for hostage or other isolation 
situations.
    My question to you is, what steps has the department taken 
to implement this directive? Director Whiteside?
    Ms. Whiteside. Sir, the directive is the specific 
responsibility of the Bureau of Diplomatic Security and their 
training program and we have as recently as within the last 
month been in touch with them about how to coordinate that in 
the government. I think currently that is being done primarily 
in our security training provided at post by our regional 
security officers (RSOs), who do an orientation for everyone 
who comes to their posts.
    But they have very recently been in touch with us to talk 
about what more we need to do to implement this in the 
department.
    Senator Akaka. Ambassador Powell, how will the department 
use funds requested for fiscal year 2012 to implement this 
training and will the department require any additional 
resources?
    Ms. Powell. Senator, we will use our planning documents, 
the Bureau and Mission Strategic Plans, as well as for 
particularly working with FSI. We are also going to be informed 
by the implementation of the QDDR. There are a number of new 
requests for training, new areas for training, particularly 
emphasizing the need to develop people who are comfortable in 
the interagency setting here in Washington, overseas and we 
will be looking at those.
    But we have a strategic plan that we are using. We have the 
new language plan that will also be available to us to guide 
the look at funding. Certainly looking ahead to implementing 
the GAO recommendations we will need to look at the cost for 
some of those in terms of the tracking.
    We have already set aside time and effort for the 
assessment needs study that is going to be done in our Civil 
Service mission critical occupations. Those are some of the 
high priorities for us for that target. But we will continue 
with the language training, our leadership training, and the 
other areas that Dr. Whiteside supervises at FSI.
    Senator Akaka. Ambassador Powell, as you know well, foreign 
language skills are critical to carrying out the department's 
mission. I am pleased that the department has completed a 
strategic plan for foreign languages, which GAO called for in 
its 2009 foreign language report.
    Please elaborate on what action State has taken or still 
plans to take to implement the recommendations for that report.
    Ms. Powell. We've been working very hard on the strategy 
itself, but in the meantime, taking some very important 
decisions, I believe, to implement things that will come to 
total fruition after it becomes part of our standard strategy.
    The working groups that have been working on language have 
worked particularly hard on identifying languages for incentive 
pay. We have been studying what needs to be done in that area. 
We have also set up a new, and I think a much improved and 
strategic approach to designating languages as critical, 
requiring training or proficiency.
    We also have a new strategy that's been developed and is 
going to be used to look at recruitment language incentives, 
deciding which ones will gain people extra credit in the 
registry after they have passed the Foreign Service test.
    I am very pleased to tell you that we have developed a 
language training and assignment model. The pilot has been 
completed. I had my first briefing on it last week. It appears 
to have great promise not only for language training, but we 
think it may be able to address some of the needs that the GAO 
has identified and help us with other areas of State Department 
training in terms of modeling our needs on a longer term scale.
    We have been very pleased that Diplomacy 3.0 has provided 
us with additional opportunities to put students in hard 
languages. Our Arabic and Chinese students have expanded 
greatly, particularly since September 11, 2001, and we continue 
to recruit Dari, Farsi, Pashto speakers in our recruitment 
efforts, but also provide additional training for people that 
need those languages at FSI.
    Senator Akaka. Ambassador Powell, I am a strong supporter 
of rotational programs to improve government integration and 
coordination. I am pleased that the department recognizes the 
importance of understanding interagency processes and has 
incorporated rotational arrangements into its training program.
    According to QDDR, employees will be encouraged to 
undertake short-term detail assignments in other agencies. Will 
you please elaborate on this program and what efforts the 
department is taking to encourage employees to participate in 
it?
    Ms. Powell. The QDDR recommendations are under review right 
now and we have not really begun the implementation project. 
But the genesis of the idea was to support exactly what you 
were saying, of trying to provide people with familiarity with 
the operations of other government agencies with whom we work 
directly, particularly overseas now. Our country teams are very 
definitely interagency.
    I was in Mexico last week, or 2 weeks ago. The number of 
agencies sitting around the country team table is very 
impressive and the coordination that our people need to be able 
to bring to that effort can be developed through these details.
    We are looking particularly at details with USAID and 
expanding the details we have with the Department of Defense 
(DOD). We have greatly expanded the number of political 
advisors and the number of students who are attending DOD 
facilities and this has certainly encouraged a much better 
rapport as people--our provincial reconstruction teams in 
Afghanistan or Iraq, they already know each other. They already 
know the mechanisms for working across interagency lines.
    We anticipate that providing that we have the funds, we 
will be able to expand those opportunities to other agencies. 
Center for Disease Control (CDC) comes to mind, particularly 
for those programs that are working with HIV/AIDS around the 
world, but other details with the agencies here in Washington.
    Senator Akaka. Ambassador Powell and Director Whiteside, 
due to the mid-level staffing gaps, more entry-level officers 
are being assigned to supervisory positions. The Academy 
recommends that all new officers in supervisory positions take 
a short course in supervising and mentoring employees, as well 
as supervising employees in other cultures.
    What steps has the department taken to make sure that 
officers have the skills needed to be effective managers? 
Director Whiteside.
    Ms. Whiteside. Sir, thank you very much. I think this is a 
very, very important question and one the director general 
particularly has encouraged us to focus on very specifically. 
In the last year, we have taken a number of steps in this 
regard. We have created a new fundamentals of supervision 
course that we are now offering 25 times, I believe, a year in 
this first year, to try to be sure that first-time 
supervisors--we realize that many of our new officers, new 
Foreign Service personnel going overseas, will supervise local 
employees in their first assignments, so we want to give them 
this basic understanding of supervision.
    We have increased in our consular overseas training. For 
example, we have focused this entire year with the Bureau of 
Consular Affairs and with the director general staff on 
training consular officers who are first-time supervisors in 
consulates in the fundamentals of supervision and more nuts and 
bolts, if you may, of supervisory skills.
    And currently we are developing a series of distance 
learning courses, one on the Foreign Service, one on the Civil 
Service, and one on the locally-employed staffing system, to 
give all of our employees worldwide a better understanding of 
these systems, better understanding of the requirements of each 
system, how people are promoted, how they are assigned, how 
they are trained, and those courses will be fundamental for 
everyone in our system on this important subject.
    Ms. Powell. Senator, if I could just add to that. Dr. 
Whiteside and I have particularly been working and have had the 
backing of the American Academy in their report on a project 
that we have found foundation money to do a pilot that will 
work with our first-time supervisors of American employees. 
They will be provided with classroom instruction.
    And then we hope to have a recent retiree that will ride 
the circuit to their posts and see how they are implementing 
that training at post, talk to their supervisors to see what 
additional information, if we were able to do this again, that 
we could provide in the next class. We are quite excited about 
this as part of our attempt to improve supervision of both the 
American and the locally-engaged staff.
    Senator Akaka. Thank you. Ambassador Powell and Director 
Whiteside, the mid-level staffing gap also has created a 
shortage of mentors for younger State employees. The department 
has developed mentoring programs to address this experience 
gap. The Academy's report also recommends that State establish 
a core of rotating counselors to provide mentoring.
    Would you please elaborate on State's mentoring programs 
and discuss your reactions to the Academy's recommendation as 
well?
    Ms. Powell. Senator, we have a very robust mentoring 
program. For those employees overseas, for our American 
employees, we have charged the deputy chief of mission, the 
number two person at the embassy, with the formal 
responsibility.
    But certainly in my remarks to the staffs as I travel 
around in other fora, we encourage everyone to be a mentor. We 
recognize that particularly if you are overseas, you can very 
quickly become the old timer in being able to help a brand new 
employee, whether they are just new to the Foreign Service or 
just new to post. So we encourage everyone to be a mentor.
    Our senior employees have stepped up to fill this gap and I 
am very pleased with the mentoring programs. Several of our 
bureaus, including the Western Hemisphere Bureau, has created 
an entry-level coordinator that is designed to work with all of 
the entry-level officers throughout that region of the world, a 
very interactive web page that has video clips. It has a great 
deal of information for people, an opportunity to answer 
questions.
    This has served as a force multiplier for our mentors at 
the smaller posts in particular. There are other efforts in 
East Asia, in the Middle East that are being done. Our 
ambassadors are particularly seized with this and see it not 
only in the interest of improving their mission, but ensuring 
that people have the opportunities that they have.
    We have started similar programs for our locally-engaged 
staff and for the Civil Service with full-time mentors and then 
something called situational mentoring in which we have several 
hundred people who have volunteered to be experts on a 
particular subject. There is a database and if you are 
interested in that particular subject, there is a group of 
people that you can request assistance from, go have a cup of 
coffee, or if it is a more formal question, they will assist 
you in getting to the right place in the department to get the 
assistance that you need.
    But this is a constant effort. We are very pleased with the 
volunteers that have done this and we will continue to expand 
it.
    Senator Akaka. Thank you. On the same question, Mr. Ford, 
what are the key elements needed to ensure an effective 
mentoring program?
    Mr. Ford. Well, I think there's a couple--several things 
here. First of all, it's encouraging to hear that the 
department is focusing on mentoring. This is an issue not 
unique to State Department. Many Federal agencies in town, 
including our own, we have a lot of younger employees that we 
are trying to teach how to do our work, but also to mentor them 
in how they advance their careers.
    I think that the critical thing here is identifying first 
of all what the needs are of the employees. I think it is 
important, particularly for junior staff, to have a good 
understanding of what their basic needs are, what kind of 
skills they need to develop particularly early on in their 
career and that the mentoring program be directly tied to that 
so that the mentoring has not just generic value by having a 
senior person, for example, like myself, to tell my staff what 
I think is important.
    I think it needs to be tied to what their skills needs are 
and that needs to be fully developed and defined in order to 
have an effective program. So I would say that is the key step 
of a mentoring program that is not unique to the State 
Department. I think it is true in general for Federal agencies 
that are now staffed with a lot of junior staff.
    Senator Akaka. Thank you for that response. I have a final 
question for the State Department witnesses and then I will 
give Mr. Ford an opportunity for final comments.
    Ambassador Powell and Director Whiteside, what do you 
expect to be the key challenges to implementing GAO's 
recommendations? Director Whiteside.
    Ms. Whiteside. Sir, I think there are a couple of things. 
One is we are a worldwide workforce in 270 missions overseas 
and in many domestic facilities around the United States. Our 
workforce, particularly locally-engaged staff, I think vary so 
much from post to post. There are cultural differences, 
obviously, in every post in the world. There are levels of 
sophistication. Our local employee staff range from highly 
sophisticated professionals to those who work in support 
positions around the embassy.
    So I think the key challenge will be how to assess the 
needs of this worldwide workforce when they are so 
geographically dispersed and very different within the mission 
itself. But I think we are very focused on being able to do 
that. We will work closely with the regional bureaus in this 
upcoming cycle of strategic planning where each mission 
overseas prepares its strategic plan, to come in to do our best 
to encourage them to help us identify the needs of those 
workforces so that we can then address them more strategically.
    So I think the key challenges are simply the nature of our 
business that gives us such both dispersed and very diverse 
workforce. But I think we are very focused on trying to address 
the GAO's recommendations in that area.
    Ms. Powell. If I could echo that by pointing out that there 
is an additional complicating factor for us in that the world 
does not stay still. We are constantly having to anticipate and 
to react to the new challenges that come to us in the midst of 
designing a program that has to have enough flexibility to be 
able to do that.
    I think, obviously, the resource constraints that were 
previewed here this morning are ones that we will have to take 
seriously as we design our programs and attempt to make sure 
that our people have the skills and the training that they 
need. But it is a very diverse workplace. The flexibility is 
very, very important, that we be able to anticipate and respond 
as the world changes. Thank you.
    Senator Akaka. Thank you very much for your response. Mr. 
Ford, would you like to make any final statements?
    Mr. Ford. Yes, Mr. Chairman. First of all, I want to say 
that during the course of this assessment, the State Department 
was very cooperative with us. We work well with their staff. As 
I tried to say in my opening statement, we think there are a 
lot of positive things that the department is doing in the 
training area.
    I think the key in the future is they have some challenges 
now because of the exigencies of operating in conflict zones. 
We are going to be civilianizing our efforts in Iraq. That is 
going to require a lot of manpower based on what the State 
Department is proposing and they are going to have challenges 
in training people for that mission.
    I think the key here again, and if in fact there is a 
constrained budget environment, it is critical that the 
department is able to prioritize the most valuable types of 
training that they need to provide to their employees. We think 
the process they go through to help identify those priorities 
is critical and I think that if they take the right steps 
forward to identify what their real needs are in these kind of 
situations, that they will be able to identify what they really 
need so that they have the right skill sets being developed for 
the staff that they have to carry out their mission.
    So I think I feel positive about the State Department's 
response to our report and we are hopeful that they will 
implement our recommendations and they will be able to provide 
Congress with some tangible information on what they are doing 
down the road as they go forward.
    Senator Akaka. Thank you very much, Mr. Ford. I want to 
thank this panel for your valuable testimony this morning and 
tell you that it will certainly help us in our work here in the 
Senate.
    I would like at this time to ask the second panel of 
witnesses to come forward. [Pause.]
    I want to welcome our second panel of witnesses, the 
Ambassador Ronald Neumann, President of the American Academy of 
Diplomacy; and Susan Johnson, President of the American Foreign 
Service Association (AFSA).
    As you know, it is the custom of the Subcommittee to swear 
in all witnesses, so will you please stand and raise your right 
hands?
    Do you swear that the testimony you are both about to give 
this Subcommittee is the truth, the whole truth and nothing but 
the truth so help you, God?
    Mr. Neumann. I do.
    Ms. Johnson. I do.
    Senator Akaka. Thank you. Let it be noted in the record 
that the witnesses answered in the affirmative.
    Before we start, I want to say that your written statement 
will be part of the record and I would like to remind you to 
limit your oral remarks to 5 minutes.
    So Ambassador Neumann, will you please proceed with your 
statement?

TESTIMONY OF THE HON. RONALD E. NEUMANN,\1\ PRESIDENT, AMERICAN 
                      ACADEMY OF DIPLOMACY

    Mr. Neumann. Senator Akaka, as demonstrations sweep across 
the Arab World, we have seen exemplary performance by Foreign 
Service Officers (FSOs) taking risks to protect American 
citizens and report on developments. Yet despite the work of a 
number of superbly qualified Arab-speaking officers, our 
government lacks sufficient trained Arabic-speaking officers to 
fully understand and assess what is happening, to go beyond the 
glib English-speaking reporters in Tahrir Square to take the 
full measure of what Islamists, young people, demonstrators, 
and the jobless are saying off camera.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Neumann appears in the appendix 
on page 55.
---------------------------------------------------------------------------
    We lack these capacities because for years the department 
lacked the resources to train enough officers. The Director 
General and Dr. Whiteside are making progress in addressing the 
problem, but it will be years before they can compensate for 
the mistakes of the past. This is a microcosm of the training 
problem that you on this Subcommittee and your colleagues are 
going to make worse or better in the budgets of this and the 
next few years.
    The American Academy of Diplomacy, an expert non-partisan 
organization that you know well, has just released this study 
of training and education necessary for our diplomats. This 
study found serious problems and makes specific 
recommendations, it builds on our earlier study of ``A Foreign 
Affair's Budget for the Future'' (FAB) and like that study, was 
funded by the Una Chapman Cox Foundation with, in this case, 
help from the American Foreign Service Association, Delavan 
Foundation and our own resources. Ambassador Robert Beecroft 
headed the work.
    Let me highlight our most important issues and 
recommendations. First is the need for personnel. With 
congressional support, the State Department has made serious 
progress. However, the progress is not complete. Several 
hundred positions are needed still for training alone. The 
Department lacks an adequate number of positions for what the 
military calls a training float. Until an adequate reserve is 
created, all the recommendations of yours, ours, the Secretary 
of State, are frankly so much useless noise they cannot be 
implemented without sufficient personnel and funding.
    Second, the personnel system must take more responsibility 
for ensuring that officers actually take the training they 
need. You might think, as I did previously, that mandatory and 
required are synonyms, but not in the State Department when it 
comes to training. Mandatory means no kidding, you have to do 
it. Required means you should do it, but because we need you 
elsewhere, you can get a waiver and skip it, and too much of 
the training officers need is required, which means it really 
isn't.
    While resources are important, another issue is that 
assignment decisions are limited to immediate service needs and 
officers' personal preferences. Integrating assignments into 
how we produce experienced officers would significantly 
strengthen the service. The system already in place to do this, 
the Career Development Program (CDP), needs to be strengthened. 
We make recommendations to that end.
    We see a need for integration of resources and authorities 
to arrive at a situation where in most cases officers must take 
the training they require before getting to their jobs. That is 
not now happening.
    Third, diplomatic officers, like military counterparts, 
need to go beyond training on specifics to broader military 
education. As our military colleagues say, train for certainty, 
but educate for uncertainty. One of our most far reaching 
recommendations is to institute a full year of professional 
education for all middle grade officers. We know it cannot be 
done immediately. We urge that a gradually increasing cascade 
of officers be devoted to this end.
    In this connection, I want to say that while we are 
generally strongly supportive of the administration's 
management of the department, to hire only at attrition is a 
mistake. Even if it is five officers, we think the direction of 
increase needs to be sustained.
    There are many additional recommendations that I will not 
detail here. They cover ways to overcome the temporary gap in 
mid-level officers and improve supervision. They touch on 
better ways to train senior officers. I hope the Subcommittee 
will give all these recommendations due consideration.
    Chairman Akaka, in closing, we recognize the difficult 
budgetary time. Nevertheless, let me leave you with one rather 
shocking figure and a final thought. The statistics which 
Director Powell mentioned is not new. Today two-thirds of U.S. 
Foreign Service Officers have less than 10 years of service. 
Let me repeat that. Two-thirds of our diplomats have less than 
10 years of experience.
    We cannot afford to leave their training to mistakes made 
on the way to experience. Not building our professional staff 
is akin to leaving maintenance of facilities undone. In the end 
it costs more in time and money to repair the damage. I hope as 
cuts are examined the Congress will recognize that diplomacy is 
an essential element of national security and by far the 
cheapest part in lives and dollars. But to the extent that cuts 
must be made, let them be made in programs rather than in 
personnel.
    I assure you that over time the results will be to our 
country's benefit. Thank you and I am ready for your questions.
    Senator Akaka. Thank you very much, Ambassador, for your 
statement. Ms. Johnson, will you please proceed with your 
statement?

 TESTIMONY OF SUSAN R. JOHNSON,\1\ PRESIDENT, AMERICAN FOREIGN 
                      SERVICE ASSOCIATION

    Ms. Johnson. Mr. Chairman, the American Foreign Service 
Association, welcomes this opportunity to speak before this 
Subcommittee on the subject of State Department training, 
professional education and formation, and I look forward very 
much to meeting with Senators Johnson and Coburn and their 
staffs on another occasion.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the appendix 
on page 63.
---------------------------------------------------------------------------
    The question of professional education and training for 
21st Century diplomacy and development goes to the heart of our 
national security readiness and competitiveness. Diplomacy and 
development are key instruments of our national power and 
should be our primary tools for advancing U.S. interest abroad.
    There are no alternatives to diplomacy, as invariably 
military interventions are costly and complicated and must 
remain the option of last resort. AFSA is proud to represent 
employees not only of the State Department, but also of the 
U.S. Agency for International Development, the Foreign 
Commercial Service, the Foreign Agricultural Service and the 
International Broadcasting Bureau.
    AFSA's over 11,000 active duty members represent today a 
much broader and more diverse range of concerns and aspirations 
then when I entered the Service in 1980. As AFSA president, one 
of my goals is to help ensure that the institutional 
environment in which our next generation of diplomats must work 
stays attuned and responsive to both the enduring and the new 
demands of their chosen profession.
    We therefore welcome the focus of this timely hearing on 
this important issue for our Nation's diplomatic service and 
look forward to a similar focus on our development service, 
USAID. As I noted in my written testimony, AFSA warmly welcomes 
the Academy of American Diplomacy (AAD) study on Forging a 21st 
Century Diplomatic Service for the United States through 
Professional Education and Training.
    As Ambassador Neumann noted in his excellent testimony, the 
first three AAD recommendations focus on the urgent need to 
redress our chronic under investment in diplomacy and 
development by fully funding Diplomacy 3.0 hiring and providing 
a training reserve or float and by making a long-term 
commitment to investing in professional formation and training. 
We agree with him that if there is no training reserve, the 
remaining recommendations become almost meaningless.
    In connection with AFSA's participation in the AAD study, 
we invited a number of former U.S. diplomats now in academia to 
help define a core body of knowledge that should be common to 
all U.S. diplomats. They noted the dramatic shifts in the 
geopolitical environment that foreshadow the rise of competing 
power centers and value systems and emphasize that marginal 
change in an effort to strengthen our diplomatic service will 
not be sufficient to meet coming challenges.
    The huge advantage the United States enjoys in the conduct 
of its international affairs by virtue of our unparalleled hard 
and soft power does not detract from the need to exercise 
astute professional diplomacy to anticipate developments, to 
provide sound advice to promote our interests and avoid costly 
mistakes.
    We need a first-class diplomatic service to maintain U.S. 
global leadership and to better advance and defend U.S. 
interests. AFSA also supports the GAO recommendations and 
believes that in order to undertake effective training needs 
assessment, the starting point must be a clear concept in 
definition of what we are training for, translated into 
operational terms and related to the central themes of the 
department's recently completed Quadrennial Diplomatic and 
Development Review.
    Second, we would like to see greater recognition of the 
importance of a diplomatic service that can operate from a 
well-defined foundation of professional standards and ethics, 
education, skills and know-how that is shared, in common. Our 
military colleagues have demonstrated the role and importance 
of professional education and training in creating services 
that are more than the sum of their parts.
    Third, AFSA believes that in order to prepare the next 
generation of American diplomats now in mid-career for a 
leadership role, there must be a system that ensures their 
participation in defining the needs and priorities of American 
diplomacy today. AFSA welcomes the growing recognition of the 
urgent need for increased investment in American diplomacy and 
in the Foreign Service as an institution.
    Thank you again for the opportunity to testify today. AFSA 
values your long-standing support of initiatives to enhance the 
diplomatic readiness of our civilian Foreign Service agencies 
and we particularly appreciate the leadership that you have 
shown in convening this hearing and we look forward to 
continuing to serve as a resource to you and your colleagues. 
Thank you.
    Senator Akaka. Thank you very much, Ms. Johnson.
    Ambassador Neumann, in your testimony, you stated the 
department still lacks an adequate number of positions for a 
training float. Although State has expanded positions for 
language training, it has not been able to do the same for 
training in leadership and other critical skills.
    Will you please discuss how a training float could help 
support our overseas diplomatic operations?
    Mr. Neumann. Senator Akaka, thank you for doing this 
hearing. Essentially, all aspects of training are geared to 
improving performance overseas, so I think it is therefore 
axiomatic that if you don't train, your performance will be 
less, unless you are extraordinarily lucky.
    If the department continues to lack a float, it will be 
where it has been for many of these past years, pulling people 
to get them into jobs to diminish gaps in assignments and they 
will therefore, continue to be unavailable for the training 
that everybody agrees they ought to have. So I think the pieces 
couple together.
    I do not think it will be possible, even with the best 
prioritization, to comment in a sense on Mr. Ford's earlier 
optimism. I am more skeptical. If the personnel do not exist to 
allow them to be withdrawn from the line, as it were, from the 
active work, then you can do a little better by prioritizing 
what you do not have. But after that, you will not get much 
better.
    Senator Akaka. As you both know, FSOs are serving in 
increasingly more remote and dangerous locations. The State 
Department provides security training to make sure FSOs have 
the proper skills to avoid, manage and respond to dangerous 
situations, such as hostage situations or the recent uprisings 
in North Africa and the Middle East.
    To both of you, what additional steps should the department 
take to make sure FSOs are sufficiently trained for dangerous 
situations?
    Mr. Neumann. Do you want to start? You have a constituent.
    Senator Akaka. Ms. Johnson.
    Ms. Johnson. Thank you, Mr. Chairman. In fact, that 
question is very important to AFSA because it is our members 
that we are talking about and their security and their ability 
to provide also for the security of their colleagues. And in 
this regard, I think we would certainly subscribe to the axiom 
that an ounce of prevention is worth a great deal.
    So we believe that this issue should be looked at 
creatively to see whether what we are currently doing is 
adequate. I did hear a reference in, and I think it was 
Ambassador Powell's testimony, to the role of the RSOs in 
providing security training. We have often heard from our 
members that the RSOs are already overburdened with other 
responsibilities and often have not had any experience with 
training, and therefore, to rely on that as the principal mode 
of providing training at post is not sufficient.
    Now, I realize that additional training is taking place in 
the department, or at FSI, prior to assignment. I do not know 
if that is required or mandatory and if there are any waivers, 
but I am hoping that it is mandatory. We have heard and talked 
with Diplomatic Security about this and there are a number of 
efforts underway, or there are a number of courses actually 
underway--not underway now, but available, that train people in 
how to be aware of dangerous situations as they develop and how 
to escape from them.
    But I think this brings us back again to the topic of 
importance to you, which is language training, and something 
that I have found in my experience, that if we are sending 
officers into potentially harm's way, to the extent that they 
are language capable, they will be better able to anticipate, 
prevent, manage, deal with those situations. So language 
training is not just training needed to better communicate. It 
is training to be more secure.
    Mr. Neumann. It is a fascinating question you ask, Senator 
Akaka. It is one that I have perhaps more experience with than 
most having served in four wars, one as a soldier, three as a 
diplomat. I've had my embassy stormed in Bahrain and carried a 
weapon under threat situations in countries in the old days 
when we had no security, so I sort of lived this.
    I subscribe to what Ms. Johnson said. I do believe that we 
have gotten a lot better at security training. One will never 
be perfect because there will always be new threats and new 
challenges, but the department is doing a great deal more.
    I think one issue that needs to be addressed is not in the 
area of training, but in the area of decision making. How much 
risk do we want our officers to take? The department has 
historically been very risk-adverse, but we are living in 
situations where that is not a sufficiency. In my experience, 
what often happens is that officers actually take more risks 
than the department would prefer in order to accomplish their 
jobs.
    I think there is a greater degree of courage in Foreign 
Service Officers than is often recognized in their public image 
and some of those who have worked for me have died in the line 
of duty. But I think the department has a responsibility to 
reconsider the issues of risks so that officers who have to 
take risks to accomplish their job do not have to risk their 
careers by stretching the regulations at the same time that 
they risk their lives for the performance of national goals.
    That is an issue that is raised in the QDDR. It calls for a 
reexamination of this issue of risk. I hope the department 
follows through. It is the kind of thing where if the Congress 
does what the department has asked and mandates the QDDR being 
instituted in law so that it has to be redone, is the kind of 
thing that will get follow-up in the future.
    Thank you for asking the question, sir.
    Senator Akaka. Thank you very much. Let me call a very 
brief recess. [Recess.]
    The Subcommittee will be in order.
    I would like to continue with a question for Ms. Johnson. 
As you know, I asked Ambassador Powell about State's efforts to 
make sure that officers have the needed supervisory skills. I 
would like you to comment as well on State's supervisory skill 
training.
    Ms. Johnson. Thank you, Mr. Chairman. AFSA is very pleased 
that the department is undertaking a number of new measures 
that they are to address the issue of supervisory skills. We 
have seen in the surveys that we have conducted and in feedback 
from our members that this has been an area of considerable 
concern and occasionally complaint. And we have also seen in 
the grievance area that we deal with and other areas that AFSA 
operates that people are dissatisfied and sometimes not 
qualified or haven't been provided the training necessary to be 
effective supervisors.
    So we are very pleased to see that the department is 
actively seeking to do a better job and to institute new 
courses, which I hope will be mandatory, for employees who are 
going out to first-time supervisory jobs, and to pay more 
attention to this whole issue as people move through the mid-
career.
    Senator Akaka. As you both know, much of the training at 
the posts is on-the-job training, which is an important aspect 
of training. The Academy recommends that State conduct a study 
to examine best practices for on-the-job training. My question 
to both of you is, what recommendations would you give the 
department regarding carrying out this study?
    Mr. Neumann. I guess I should start since it was our 
recommendation.
    Senator Akaka. Ambassador Neumann.
    Mr. Neumann. Thank you, Senator Akaka. I think, of course, 
I would look to professional trainers and people who have 
looked at this kind of issue before to do this sort of study. 
And anecdotally, we hear things about some people relate much 
better to Generation X, Generation Y people than others, that 
there are techniques that convey information better, and others 
that get people's backs up.
    The point of a survey would be to pick up that kind of 
information, both from those doing on-the-job training and 
those who receive counseling on the job, what works, what 
doesn't, to try to compile a sense of best practices. Then to 
put that into some readily digestible form. As Director Powell 
noted, all Deputy Chief Missions (DCMs) have this mentoring 
responsibility. It would be very helpful for people who have 
newly become DCMs, or maybe not so new, who have this 
responsibility, to have something to go on beyond completely 
gut instinct as to what works best in mentoring. They might be 
able to go through a short, possibly distance learning course 
in how do you identify different generational types. What kinds 
of things work best to convey advice so that it is meaningful 
and useful? That is the kind of thing we are looking at.
    Senator Akaka. Ms. Johnson.
    Ms. Johnson. Thank you. I would just like to add to the 
comments of Ambassador Neumann, with which I agree. But from my 
own experience and what people have said to me, it might be 
helpful if we could identify what specific skills we want to 
develop and perfect through this on-the-job training and make 
that clear upfront, both to the DCM and to the mentors, as well 
as to the mentees, so you would get a better sense of whether 
the experiences that the mentor is trying to make sure an 
employee gets to constitute the sort of on-the-job training are 
in fact the right ones and which gaps there are.
    So I think it would help both parties to have a better 
sense what specific skills are we trying to develop or improve 
and perfect through this mentoring.
    Mr. Neumann. So long as you recognize that some of what you 
are trying to mentor is not a specific skill, but a sort of 
general ability to react to problems.
    Senator Akaka. Thank you. Ambassador Neumann, as you 
pointed out in your testimony, although State has established 
requirements for promotion to the senior ranks, the Academy 
reported that it is concerned that officers will be unprepared 
because the department does not monitor their progress toward 
meeting the requirements.
    My question to you is what steps should the department take 
to make sure its officers are prepared to enter the senior 
ranks?
    Mr. Neumann. Very briefly, so that I do not recapitulate 
all our recommendations, I think they have done a pretty good 
job in the Career Development Program of laying out the basic 
things that are necessary. What is needed now is the how, how 
are you going to make sure officers get the skills you have 
already identified, and part of that is informal training, as 
we have talked about. Part of it is in mentoring.
    Part of it will be whether the department has the capacity 
to actually allow people to take the training which it has 
identified. The one piece that we have particularly focused on 
here as well is to look at assignments as being related to 
training. Right now, decisions are made pretty much exclusively 
on the short-term needs of the service and the short-term focus 
of the officer.
    We think there ought to be a third piece of that so that 
the assignments in particular career tracks help officers to 
develop the skills for the future. That kind of thinking will 
only be possible if the role of the central personnel system is 
strengthened in the assignments process. Thank you.
    Senator Akaka. Ambassador Neumann, the Academy's report 
states that employees of the Office of Career Development and 
Assignment are not trained to offer career advice or conduct 
the workforce planning. The report also points out that most of 
the office's staff are in the Foreign Service, which brings 
important expertise, but means that people leave after 2 or 3 
years' rotations.
    You recommend establishing a cadre of 7 to 10 permanent 
human resource specialists for this office. Would you please 
elaborate on how this would benefit the service?
    Mr. Neumann. The office has to maintain, sir, a balance 
between its various requirements, including needs of the 
officer, needs of the service. Part of that balance requires 
that Foreign Service Officers, who actually know what the jobs 
are overseas and the conditions, remain in charge of the 
office. I think we would have a serious problem if you ended up 
with a service in the field being run entirely by people who do 
not serve in the field.
    But there is also a need that my colleagues who worked on 
this report identified, which I believe in, for a strengthening 
of the numbers of the permanent staff, that is, the Civil 
Service staff, to provide the underpinning of continuity and 
knowledge so that the continuity on the one hand and the 
foreign experience on the other make a blending in the office 
to perform a stronger role.
    Our estimation was, as you stated. That is our estimation. 
One could find that it needs a few more or a few less of the 
permanent cadres as one actually experiments with it. But the 
notion of the increase is so that you have enough permanent 
staff to provide the expanded basis of continuity, which we 
believe would be useful. Thank you.
    Senator Akaka. In Ambassador Neumann's testimony, he stated 
that we should train for certainty and educate for uncertainty. 
He emphasized the importance of intellectual preparation.
    The Academy recommends that mid-career officers receive a 
year of professional education and that it be required for 
promotion to the senior ranks. Would you please discuss this 
and the advantages of allowing officers a year of advance 
study?
    Mr. Neumann. Certainly. This is, as you know, Senator 
Akaka, a constant which has been long and well established with 
our military colleagues. It is exactly this approach that has 
led to people like General David Petraeus having a doctoral 
degree from an advanced university.
    There is a quality to education, to reflection on broader 
issues, which you cannot get simply by specific training and I 
think that is actually a notion which underlies the whole 
notion of liberal education in universities in America. I can 
tell you that my own experience of going to the National War 
College back in 1990, 1991 bore this out.
    In an anecdotal fashion I expected to have fun. I had no 
idea how much I was going to learn and I learned a great deal, 
not only about how to interoperate with my colleagues in the 
military, but giving me a chance to step back from the day-to-
day pressures of resolving specific things or being trained for 
specific skills and think about how do you integrate these 
things more broadly and what are the downsides to any course of 
action and how do you mitigate the kind of things that senior 
managers have to think about?
    There is a degree to which these will always be a little 
bit ephemeral. You can always more easily define specific skill 
sets than what it means to be an educated person and one 
capable of reflection at senior levels. But I am quite sure 
working up in this diverse body we call the Congress that you 
are able to identify both sets of personalities. Thank you.
    Senator Akaka. Thank you, Ambassador. Ms. Johnson, in your 
testimony, you stated that AFSA would like to see greater 
recognition of the importance of a common foundation of 
professional identity, standards, and expectations within the 
Foreign Service. This may be difficult to develop if training 
is too focused on narrowly defined technical skills.
    Would you please explain the importance of having a clear 
sense of unity of effort and what steps the department can take 
to address this?
    Ms. Johnson. Thank you, Mr. Chairman. I think it has been 
noted by a number of the witnesses this morning the diversity 
that is reflected in the Foreign Service of today. We have a 
very talented group of people from all over the United States 
and every measure of diversity that you can think of entering 
our service today and this very varied background I think 
underscores the need, even the heightened need for trying to 
develop a common shared foundation for across all of our sort 
of specializations, cones and other subdivisions that we have.
    AFSA conducted a couple of surveys last year to all entry-
level and mid-level officers asking them what they thought 
their profession was, what requirements, were there any core 
values, was there anything? And the responses that we got were 
all over the place. It was very evident that there was no 
unified set of commonly held values or understanding about what 
the professional requirements were.
    We think that these surveys should be followed up on and 
that the department needs to develop a process that involves 
both top down and bottom up input into developing this kind of 
a sort of common culture. I think it once existed in the 
Foreign Service. It has diminished for a variety of reasons and 
I think it is very important today, and AFSA believes that this 
needs to be reestablished and we would look forward to having a 
role in this process. But it is something that has to be 
participatory and has to be both top down and bottom up in our 
view.
    Senator Akaka. Thank you. This is my final question for 
this panel. What are your top three recommendations for 
addressing employee training and education at the State 
Department?
    Mr. Neumann. My first one--
    Senator Akaka. Ambassador Neumann.
    Mr. Neumann. Thank you. My first one, Senator Akaka, is the 
continuation of personnel growth and the second is funding. 
When we did the report in 2008 that you supported us on, the 
report on A Foreign Affairs Budget for the Future, you will 
remember, sir, that we documented a broken diplomacy. Thirty 
percent of our language-designated positions lacked qualified 
officers, there were staffing gaps, and so on.
    If resources are reduced, if the Foreign Service is cut, as 
some recommend, then we will go back to a broken diplomacy 
incapable of meeting the Nation's security demands overseas. I 
think perhaps I should have said that our first recommendation 
is that diplomacy as a whole be looked at as a part of national 
security. If we do not do that, I think the specific 
recommendations fall.
    The second is people. The third is money. Recognizing that 
there have to be cuts, I would say. Where there are cuts they, 
in our recommendation, should be heavy on the program side, as 
painful as some of those will be to their individual program 
constituencies, because programs can be made up fairly quickly 
when the economic situation improves.
    But problems in the institution take years and years to 
rectify. The last 2 years you have helped push the funding that 
has allowed this increase in training positions. But it takes 2 
years to train an Arabic-language qualified officer to the same 
level we train in 6 months in French, and you have to back up 
from that to, of course, from funding decisions, to the 
allocation, to the development of programs, to the recruitment 
of people, to putting them in a program.
    So undoing the problems of the past is not something we 
have accomplished yet. We are on the path to it. If we cease 
the path we will cease the progress. Thank you very much, sir.
    Senator Akaka. Thank you. Ms. Johnson.
    Ms. Johnson. I think the first would be a clearer 
definition of what we are training for, what we really need to 
be doing. Beyond the very broad definition that appears, I 
think, in the State Department's annual training plan today, 
which talks about the purpose of the department's training, is 
to develop the men and women our Nation requires to fulfill our 
leadership role in world affairs and advance and defend United 
States interests, and that is at a sort of 35,000-foot level.
    I think we need a clear definition of what that means 
operationally in order to get all the training, professional 
education right and make sure that we are doing the right 
things in an era of scare resources.
    Second, greater focus on the needs of the institution as 
opposed to the individual. I have benefited myself from--as an 
individual, I have loved my career, every bit of it. I am not 
sure it was always the thing that was in the best interest of 
the institution.
    And more on creating multi-functional officers. I am not 
sure that we can afford anymore to have specialization, cone-
based specialization. I think the more we can encourage multi-
functional officers who are multi-capable, the better off we 
will be.
    And then finally, more focus on education that conveys 
knowledge in addition to the skills that we need to develop as 
diplomats.
    Senator Akaka. Thank you. This has been helpful to our 
Committee and I want to say thank you very much for your 
responses, and I want to thank all of our witnesses today.
    It is clear to me that State has made great efforts to 
equip its workforce to meet 21st Century challenges. However, 
more work needs to be done. Many of the recommendations 
discussed today are contingent upon Congress passing an 
appropriations bill. The Senate currently is considering 
continuing resolutions for the rest of fiscal year 2011 that 
would meet House Republicans half way thus far.
    I hope we work quickly to finalize these appropriations. I 
am committed to working with State and stakeholders like the 
Academy and AFSA to support your efforts to enhance State 
Department training. Again, I want to say thank you.
    The hearing record will be open for 1 week for additional 
statements or questions other members may have. This hearing is 
adjourned.
    [Whereupon, at 11:53 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6678.001

[GRAPHIC] [TIFF OMITTED] T6678.002

[GRAPHIC] [TIFF OMITTED] T6678.003

[GRAPHIC] [TIFF OMITTED] T6678.004

[GRAPHIC] [TIFF OMITTED] T6678.005

[GRAPHIC] [TIFF OMITTED] T6678.006

[GRAPHIC] [TIFF OMITTED] T6678.007

[GRAPHIC] [TIFF OMITTED] T6678.008

[GRAPHIC] [TIFF OMITTED] T6678.009

[GRAPHIC] [TIFF OMITTED] T6678.010

[GRAPHIC] [TIFF OMITTED] T6678.011

[GRAPHIC] [TIFF OMITTED] T6678.012

[GRAPHIC] [TIFF OMITTED] T6678.013

[GRAPHIC] [TIFF OMITTED] T6678.014

[GRAPHIC] [TIFF OMITTED] T6678.015

[GRAPHIC] [TIFF OMITTED] T6678.016

[GRAPHIC] [TIFF OMITTED] T6678.017

[GRAPHIC] [TIFF OMITTED] T6678.018

[GRAPHIC] [TIFF OMITTED] T6678.019

[GRAPHIC] [TIFF OMITTED] T6678.020

[GRAPHIC] [TIFF OMITTED] T6678.021

[GRAPHIC] [TIFF OMITTED] T6678.022

[GRAPHIC] [TIFF OMITTED] T6678.023

[GRAPHIC] [TIFF OMITTED] T6678.024

[GRAPHIC] [TIFF OMITTED] T6678.025

[GRAPHIC] [TIFF OMITTED] T6678.026

[GRAPHIC] [TIFF OMITTED] T6678.027

[GRAPHIC] [TIFF OMITTED] T6678.028

[GRAPHIC] [TIFF OMITTED] T6678.029

[GRAPHIC] [TIFF OMITTED] T6678.030

[GRAPHIC] [TIFF OMITTED] T6678.031

[GRAPHIC] [TIFF OMITTED] T6678.032

[GRAPHIC] [TIFF OMITTED] T6678.033

[GRAPHIC] [TIFF OMITTED] T6678.034

[GRAPHIC] [TIFF OMITTED] T6678.035

[GRAPHIC] [TIFF OMITTED] T6678.036

[GRAPHIC] [TIFF OMITTED] T6678.037

[GRAPHIC] [TIFF OMITTED] T6678.038

[GRAPHIC] [TIFF OMITTED] T6678.039

[GRAPHIC] [TIFF OMITTED] T6678.040

[GRAPHIC] [TIFF OMITTED] T6678.041

[GRAPHIC] [TIFF OMITTED] T6678.042

[GRAPHIC] [TIFF OMITTED] T6678.043

[GRAPHIC] [TIFF OMITTED] T6678.044

[GRAPHIC] [TIFF OMITTED] T6678.045

[GRAPHIC] [TIFF OMITTED] T6678.046

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
